V

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 19 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

ADRIAN HERNANDEZ,
Petitioner-Appellant,
v.

CHARLES L. RYAN; et al.,

No.

19-16084

D.C. No. 2:18-cv-00413-DLR
District of Arizona,
Phoenix
ORDER

Respondents-Appellees.
Before:

CLIFTON and NGUYEN, Circuit Judges.

Appellant’s motion for reconsideration en banc (Docket Entry No. 6) is
denied on behalf of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
No further filings will be entertained in this closed case.

FILED

UNITED STATES COURT OF APPEALS

DEC 20 2019

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ADRIAN HERNANDEZ,
Petitioner-Appellant,
v.
CHARLES L. RYAN; et al.,

No.

19-16084

D.C. No. 2:18-cv-00413-DLR
District of Arizona,
Phoenix
ORDER

Respondents-Appellees.
Before:

TALLMAN and NGUYEN, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012).
Any pending motions are denied as moot.
DENIED.

Case: 2:18-cv-00413-DLR

Document 30

Filed 05/15/19

Page 1 of 1

1
2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Petitioner,

10
11

v.

12

Charles L Ryan, et al.,

13

NO. CV-18-00413-PHX-DLR

Adrian Hernandez,

JUDGMENT IN A CIVIL CASE

Respondents.

14
15
16

Decision by Court. This action came for consideration before the Court. The
issues have been considered and a decision has been rendered.

17

IT IS ORDERED AND ADJUDGED accepting the Report and Recommendation

18

of the Magistrate Judge as the order of this Court. Petitioner’s Petition for Writ of

19

Habeas Corpus pursuant to 28 U. S. C. § 2254 is denied and this action is hereby

20

dismissed with prejudice.
Brian D. Karth
District Court Executive/Clerk of Court

21
22
23
24
25
26
27
28

May 15, 2019
By

s/ Michelle Sanders
Deputy Clerk

Case: 2:18-cv-00413-DLR

Document 29

Filed 05/15/19

Page 1 of 3

1
2
3
4
5

6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8

9

Adrian Hernandez,
Petitioner,

10
11

v.

12

Charles L Ryan, et al.,

13

No. CV-18-00413-PHX-DLR
ORDER

Respondents.

14
15

16

Before the Court is the Report and Recommendation (“R&R”) of Magistrate Judge

17

James F. Metcalf (Doc. 25) regarding Petitioner’s Petition for Writ of Habeas Corpus filed

18

pursuant to 28 U.S.C. § 2254 (Doc. 1). The R&R recommends that the petition be denied

19

and dismissed with prejudice. The Magistrate Judge advised the parties that they had

20

fourteen days from the date of service of a copy of the R&R to file specific written

21

objections with the Court. Petitioner filed an objection to the R&R on March 29, 2019,

22

(Doc. 26), and Respondents filed their response on April 15, 2019 (Doc. 27).

23

The Court has considered the objections and reviewed the R&R de novo. See Fed.

24

R. Civ. P. 72(b); 28 U.S.C. § 636(b)(1). The Magistrate Judge correctly found the petition

25

is untimely. As part of the Anti-Terrorism and Effective Death Penalty Act of 1996

26

(“AEDPA”), Congress set a one-year statute of limitations for all applications for writs of

27

habeas corpus filed pursuant to § 2254, challenging convictions and sentences rendered by

28

state courts. 28 U.S.C. § 2244(d). Petitioner did not meet that one-year limitation.

Case: 2:18-cv-00413-DLR

Document 29

Filed 05/15/19

Page 2 of 3

1

Petitioner’s one-year habeas limitations period commenced on May 1, 2012, the day

2

after his proceeding with Arizona Supreme Court was dismissed. However, because

3

Petitioner commenced his first post-conviction relief (“PCR”) proceeding on April 10,

4

2012, before his limitations period began to run, the limitations period was tolled from its

5

inception, through May 8, 2015, when the Arizona Court of Appeals issued its mandate on

6

its order denying relief. His one-year limitations period expired one year later, on May 8,

7

2016. Petitioner’s habeas petition (Doc. 1) is deemed filed on January 30, 2018, more than

8

a year after the expiration of his one-year limitations period. The R&R correctly concluded

9

that the petition is untimely, as it was not filed within the one-year deadline.

10

Petitioner raises multiple objections to the R&R but fails to establish a basis for

11

additional tolling of the one-year limitations period.

12

evidence assertion is without merit. The alleged newly discovered evidence is based on

13

the trial record, which could have been discovered with reasonable diligence during the

14

filing period set forth in 28 U.S.C. § 2244(D)(1)(a).

Petitioner’s newly discovered

15

Petitioner’s assertions that the time between his first and second PCR proceeding

16

should be tolled because they are related, and that he deserves equitable tolling because he

17

is a non-English speaker, will not be considered because those argument were not made to

18

the Magistrate Judge. See Unites States v. Howell, 231 F.3d 615, 621-22 (9th Cir. 2000).

19

Petitioner’s assertion that the limitations period should be tolled because his PCR

20

counsel was ineffective is a re-argument of the issues he raised to the Magistrate Judge.

21

He does not identify any specific error in the Magistrate Judge’s finding on that issue. The

22

Magistrate Judge correctly found that alleged infective assistance conduct—the omission

23

of a claim for relief—was not the type of extraordinary attorney misconduct that warrants

24

equitable tolling. See Holland v. Florida, 560 U.S 631, 651-52 (2010).

25

Petitioner’s assertion that the inadequacy of the prison library prevented a timely

26

filing of his habeas petition is not supported by any explanation of what the inadequacy

27

was or how the inadequacy prevented him from meeting the one-year filing period.

28

Petitioner has not shown a basis for additional statutory tolling, equitable tolling, or

-2-

Case: 2:18-cv-00413-DLR

Document 29

Filed 05/15/19

Page 3 of 3

1

actual innocence. The Court therefore accepts the R&R within the meaning of Federal

2

Rule of Civil Procedure 72(b) and overrules Petitioner’s objections. See 28 U.S.C. §

3

636(b)(1).

4

IT IS ORDERED that the R&R (Doc. 25) is ACCEPTED. A Certificate of

5

Appealability and leave to proceed in forma pauperis on appeal (Doc. 28) are DENIED

6

because the dismissal of the Petition is justified by a plain procedural bar and reasonable

7

jurists would not find the ruling debatable, and because Petitioner has not made a

8

substantial showing of the denial of a constitutional right. The Clerk of the Court shall

9

enter judgment denying and dismissing Petitioner’s Petition for Writ of Habeas Corpus

10

filed pursuant to 28 U.S.C. § 2254 (Doc. 1) with prejudice and shall terminate this action.

11

Dated this 15th day of May, 2019.

12
13
14
15

16

v—

Dongl&sdL Raves
United States District Judge

17
18
19
20
21
22
23
24
25
26
27
28

-3-

Case: 2:18-cv-00413-DLR

Document 25

Filed 03/15/19

Page 1 of 21

1
2
3
4

5
6

UNITED STATES DISTRICT COURT
DISTRICT OF ARIZONA

7
8

9
10

Adrian Hernandez,
Petitioner

CV-18-0413-PHX-DLR (JFM)

-vs-

Report & Recommendation
on Petition for Writ of Habeas Corpus

Charles L. Ryan, et al.,
Respondents.

L MATTER UNDER CONSIDERATION

11
12

Petitioner, presently incarcerated in the Red Rock Correctional Center at Eloy,

13

Arizona, filed a Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254 on

14 February 5, 2018 (Doc. 1). On September 10,2 018 Respondents filed their Limited
15 Answer (Docs. 10-22). Petitioner filed a Reply on October 11,2018 (Doc. 24).
16

The Petitioner's Petition is now ripe for consideration,

Accordingly, die

17 undersigned makes the following proposed findings of fact, report, and recommendation
18 pursuant to Rule 8(b), Rules Governing Section 2254 Cases, Rule 72(b), Federal Rules of

19 Civil Procedure, 28 U.S.C. § 636(b) and Rule 72.2(a)(2), Local Rules of Civil Procedure.
20
21
22
23

H. RELEVANT FACTUAL & PROCEDURAL BACKGROUND
A. FACTUAL BACKGROUND
In disposing of Petitioner’s direct appeal, the Arizona Court of Appeals described
the factual background as follows:

24

25
26
27
28

In the early morning of October 28, 2009, Defendant and an
accomplice forcibly entered a residence, armed with semiautomatic
handguns, intending to burglarize the house. Present in the house
were adults Leyva, Peralta and Martinez. Also present were Leyva* s
three minor children, ages one, four and six.
Once inside the house, Defendant and the accomplice forced
13
all the occupants into one room and took turns guarding the occupants
at gun point. Defendant and the accomplice fled after police arrived.

12

1

Case: 2:18-cv-00413-DLR

3

Filed 03/15/19

Page 2 of 21

Defendant was arrested shortly thereafter and identified as one of the
men who entered the home and restrained the victims. Defendant later
admitted participating in the burglary.

1
2

Document 25

(Exhibit S, Mem. Dec. at

2-3.) (Exhibits to the Answer, Docs. 10-22, are referenced

herein as “Exhibit__ .”)1

4

5

B. PROCEEDINGS AT TRIAL

6

On November 5,2009, the State indicted Defendant on: (1) first-degree burglary, a

7

class 2 dangerous felony; (2) three counts of kidnapping (relating to the adults), class 2

8

dangerous felonies; (3) three counts of kidnapping (relating to the children), alleged as

9 dangerous crimes against children and class 2 dangerous felonies; (4) three counts of
10 armed robbery, class 2 dangerous felonies; and (5) misconduct involving weapons, a class
11

4 felony.2 (Exhibit A, Indictment.) The state filed an Allegation of Aggravating

12 Circumstances. (Exhibit B.) ‘The State later dismissed one of the armed robbery counts
13

and the misconduct involving weapons charge.” (Exhibit S, Mem. Dec. at U 4, n.2.)

14

Petitioner, represented by counsel Cain, proceeded to a settlement conference on

15 February 23,2010 before Judge Steinle, where the prosecution reviewed its case and the
16 likelihood of a life sentence at trial, and defense counsel asserted the defense at trial would
17 be duress which would require Petitioner to testify. The judge reviewed the unaggravated
18 sentencing exposure of 57 years, the potential for aggravating factors, and the likelihood
19 of an aggravated sentence between 50 and 90 years, and the potential for a 17-year
20

sentence under the plea offer. (Exhibit E, R.T. 2/23/10.) Addressing the duress defense,

21
22

Respondents have attached duplicate sets of their exhibits (Docs. 11-22) to their e-filed
Answer, one set is appended to the index filed as the main docket item (e.g. Docs. 11,12,
24 etc.), and one set as separate attachments to the same docket item (e.g. Docs. 11-1 thru 118, Doc. 12-1, etc.). Except as noted hereinafter, the undersigned has not discerned any
25 differences, but references herein the copies attached to the main docket entry (e.g. Doc.
26 11,12, etc.), which have in the .pdf file have been bookmarked with labels.
23

l

2 The driver of the getaway car, a 17-year-old female, was also charged in the Indictment
(Exhibit A), but was ultimately severed for trial in part on the basis that her defense was
28 duress from Petitioner and his accomplice (Exhibit G, R.T. 3/11/10 at 12-13).

27

2

Case: 2:18-cv-00413-DLR

1
2

Document 25

Filed 03/15/19

Page 3 of 21

the judge cautioned:
THE COURT:
***

3
4

5
6
7
8

9
10

I’ve used the duress defense in the past. Juries don't like the
duress defense. They have to believe everything that you say in order
to find duress. And my guess, when they look at your credibility and
they weigh it against the children coming into court and the adults
talking about what you did. Based upon the number of trials I did,
probabilities are they're not going to believe you, and then it's going
to be too late.
When the victims come in and point over at table and go,
‘That’s the man that did this thing,” you can get up there and say, "'I
did it, but I did it because someone threatened me,” I don't think the
jury’s going to believe your defense.
Ms. Cain tried a lot of cases in my court oyer the last five
years. She is very persuasive to juries. But the one time she tried to
persuade them about a duress defense, the jury found the defendant
guilty and on a very short deliberation. It's not an easy defense to do.
** *

11
12
13
14

15
16
17
18
19
20

21
22

So you have a hard choice to make. What are you going to do
with your life? Are you going to accept the plea that will give you a
chance at a life? Or are you going to go ahead and go to trial, and if
you lose at trial spend the rest of your life in a jail cell?
You’re going to have to make that choice. Do you have any
questions of me?
THE DEFENDANT: No. I'm going to go on with the trial
because Fm innocent.
THE COURT: And without going into any great detail, are
you innocent because you weren't there or are you innocent because
you were under duress?
THE DEFENDANT: I didn't know it was going to happen.
* * * *

THE DEFEN[D]ANT: No. I mean, you know, he put the gun
to my head and said if I didn't do it he'd pump me full of lead. You
know, I all started out as a party and ended up like this.
(Id. at 10-12.) The plea offer was left pending. (Id. at 15.)
On March 11, 2010, the matter was assigned to Judge Whitten for trial. (Exhibit
G, R.T. 3/11/10 AM.) Petitioner appeared before Judge Whitten, who offered to discuss
a potential settlement by plea, and inquired of counsel :

23
24

25
26
27
28

THE COURT: Okay. Counsel, will you waive any conflict and
allow me to go forward and have these kind of discussions with your
client, and then also if they aren’t successful serve as the trial judge?
MS. CAIN: Yes, Your Honor.
THE COURT: And, for the record, will the State also?
MR. SIMMONS: Yeah, Judge. No objection.
THE COURT: I don't intend to do a normal settlement
conference because I am going to be the trial judge, so I don’t want to
hear from anybody about how strong the evidence is going to be. Do
you understand?
3

Case: 2:18-cv-00413-DLR

Document 25

Filed 03/15/19

Page 4 of 21

THE DEFENDANT: Yes.
1
2
3
4
5
6

(Exhibit H, R.T. 3/11/10 PM at 4.) The court reviewed Petitioner’s likely sentencing
exposure at trial (37 to 6.15 years) and the state offered a plea with a sentence of 20 to 24
years, flat. Petitioner argued the offer was for too long of a sentence, it was disproportional
because nobody got hurt, and he was innocent. Petitioner indicated he would accept a
plea of 7 to 10 years, but that offer was not acceptable to the prosecution. The court
summarized:

7
If you really think that a jury will believe the victims and not you,
ana you really think the jury will convict you, then the decision you
are making is going to cost you at least 17 years of your life. So I
want you to think carefully about it and not just reject it because it's
too much time. Not just reject it because murderers get less, because
murderers have nothing to do with your case. Your case is about this
decision. And if you have reasonably looked at your case and decide
you think you will get convicted, then what you are doing right now
is choosing 37 years of prison when you could be choosing 20, and
that doesn't make sense to me.

8
9
10
11
12
13

(Id. at 23-24.) Petitioner rejected the offer.
Petitioner proceeded to trial on March 15,2010. (Exhibit I, R.T. 3/15/10.) During

14

15 Voir Dire, Juror No. 40 responded to questioning about impartiality as follows:
16
17

s
/

18
19

Q. ...No. 40?
A. I put some of my most important belongings into my ex- S
boyfriend's truck and he took it to work on a worksite and his truck
,
got stolen.
Q. And has that affected your ability to be fair and impartial
in this case?
A. Absolutely.

L 20 (R.T. 3/15/10 PM, Doc.13-1 at 83.) Nonetheless, Juror 40 was seated for trial. (Id. at 93,
)

> 21

107.)3

22

Petitioner testified in his own behalf, asserting intoxication and duress. (Exhibit K,

23

R.T. 3/22/10 at 55 et seq.) The jury was instructed on the defense of duress. (Exhibit L,

24
25

3 Respondents provide part 1 (pages 1 through 50) of proceedings on voir dire on March
26 15, 2010 (Exhibit I, Doc. 12 and also at Doc. 12-1). The portion purporting to be part 2
(pages 50-60) of those proceedings provided as Doc. 13 appears to be instead a portion of
proceedings
on March 16, 2010 (compare Exhibit J, part 2, pp. 50-60 (filed at Doc. 15)).
27
Nonetheless, the remainder (pages 51-109) of the March 15,2010 transcript is provided at
28 Doc. 13-1.
4

Case: 2:18-cv-00413-DLR

Document 25

Filed 03/15/19

Page 5 of 21

1

R.T. 3/23/10 at 9.) The jury convicted on all remaining charges, and made finding to

2

support the dangerous crimes against children charges. (Id. at 42, et seq.) The state

3

dismissed all other aggravating circumstances. (Id. at 47.)

4

Petitioner proceeded to sentencing on June 24, 2010. (Exhibit N, R.T. 6/24/10.)

5 The trial court sentenced Defendant to mitigated terms of 7 years each on the burglary,
6 adult kidnapping and armed robbery counts, all to be served concurrently. However,
7

because the Dangerous Crimes Against Children Statute triggers mandatory enhanced

8

sentences, the court sentenced Defendant to enhanced terms of 10 years for each of the

9 three child kidnapping counts, each to be served consecutively to Defendant’s concurrent
10 sentences, and to each other with no credit for time served. (Exhibit N, R.T. 6/24/10 at 7;
11

Exhibit S, Mem. Dec. at f 6.) Accordingly, Petitioner is serving an effective prison term

12 of 37 years.
13
14 C. PROCEEDINGS ON DIRECT APPEAL
15

Petitioner filed a direct appeal, and counsel argued that there was insufficient

16 evidence to support the child kidnapping charges, because there was no evidence that
17 Petitioner knew children were in the house. Counsel argued this was a violation, inter
18 alia, of Petitioner’s federal right to due^process under the FourteenthAmendment,, citing
19 In re Winship, 397 U.S. 358 (197Q). (Exhibit P, Opening Brief.)
20

The Arizona Court of Appeals rejected the argument, concluding that the Arizona

21

Dangerous Crimes Against Children statute did not require such intent, and applied to a

22

defendant when his victim turns out to be a child, even if the defendant quite reasonably

23

believed to the contrary. “Even if he did not know that children lived in the home and did

24

not plan to kidnap them prior to the invasion, he nonetheless did restrain them during the

25

event.” (Exhibit S, Mem. Dec. at 13.)

26

Although Petitioner obtained from the Arizona Supreme Court an extension of time

27

until April 16, 2012 to do so, Petitioner did not timely file a petition for review, and his

28

proceeding with the Arizona Supreme Court was dismissed on April 30, 2012. (Exhibit
5

Case: 2:18-cv-00413-DLR

1

Document 25

Filed 03/15/19

Page 6 of 21

T, Motion; Exhibit U, Order 4/30/12.)

2
3
4

5
6
7
8

9
10
11
12
13
14

15
16
17
18

19
20

21
22
23
24
25

26
27
28

D. PROCEEDINGS ON POST-CONVICTION RELIEF
1. First PCR Proceeding
In the meantime, on April 10^2012, Petitioner had filed a Notice of Post-Conviction
Relief (Exhibit V). Counsel was appointed (Exhibit W, M.E. 4/1712), who ultimately filed
a Notice of Completion of Review (Exhibit W), asserting an inability to find an issue for
review. Petitioner was granted leave to file a pro per PCR petition, and counsel was
ordered to remain in an advisory capacity. (Exhibit Y, M.E. 10/31/12.) Petitioner filed
his pro per Petition (Exhibit Z), arguing ineffective assistance based on failure to advise
Petitioner that voluntary intoxication was not a defense, failure to advise Petitioner on the
jury instruction on voluntary intoxication, and argued Petitioner would have accepted the
plea offer had he been adequately advised on the defense. The State argued (Exhibit AA)
that Petitioner’s defense had always been based on duress, not intoxication, and thus
Petitioner’s claims were without merit. Petitioner replied (Exhibit BB) that he had alerted
counsel of his intent to assert an intoxication defense. He also argued that counsel was
deficient in explaining the duress defense. The PCR court summarized Petitioner’s claims
as contending “that trial counsel rendered ineffective assistance by failing to inform him
that voluntary intoxication is not an affirmative defense under Arizona law, not advising
him that a voluntary intoxication instruction would be given, and waiving his presence for
the discussion of preliminary jury instructions.” The court dismissed the petition without
a hearing as failing to assert a colorable claim, based on the conclusion that: “the record
does not support any of the Defendant’s claims or allegations. Instead, the record
contradicts those claims and allegations.” (Exhibit CC, M.E. 8/19/13 at 2.)
Petitioner sough review from the Arizona Court of Appeals, challenging the PCR
court’s no-colorable-claim dismissal. (Exhibit DD, Petition for Review.) On March 24,
2015, the appellate court granted review, but denied relief on the merits as to the claims
based on the intoxication defense. As to the claim based on the duress defense, the court
6

Case: 2:18-cv-00413-DLR

Document 25

Filed 03/15/19

Page 7 of 21

1

ruled that the claim was improperly presented on review because it was not first properly

2

presented to the trial court, having not been raised until his reply in the PCR court. (Exhibit

3

FF, Mem. Dec. 3/24/15.)

4

Petitioner did not seek reconsideration or further review. (Exhibit FF, Mandate.)

5
6
7
8

9
10
11
12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
27
28

2. Second PCR Proceeding
Almost fourteen months later, on May 20, 2016, Petitioner filed a second PCR
Notice and Petition (Exhibit GG), raising claims that: (1) trial counsel was ineffective for
failing to challenge a juror, and appellate and PCR counsel were ineffective for failing to
raise the claims; and (2) trial counsel was ineffective for waiving the judge’s conflict of
interest at the settlement conference. The PCR court summarily dismissed the PCR.
(Exhibit HH, M.E. 8/16/16.)
Petitioner sought review from the Arizona Court of Appeals (Exhibit JJ), who
granted review, but denied relief on October 26, 2017 (Exhibit II Mem. Dec. 10/26/17).
The court found any claim of ineffective assistance of PCR counsel to be without merit,
based on the lack of a constitutionaljight to such counsel. The remaining claims were
rejected as precluded because they “were, or could have been, raised in the earlier PCR
proceeding” and because they were untimely. (Id. at 6.) Petitioner did not see further
review. (Exhibit II, Mandate.)
E. PRESENT FEDERAL HABEAS PROCEEDINGS
Petition-Over three months later, Petitioner commenced the current case by filing
his Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254 on February 5,2018
(Doc.l). Petitioner’s Petition asserts the following four grounds for relief:
In Ground One, Petitioner alleges that his conviction for kidnapping
persons under die age of 15 was supported by insufficient evidence
in violation of his Fifth, Sixth, and Fourteenth Amendment rights. In
Ground Two, he alleges that he was denied the effective assistance
of counsel in violation of his Fifth, Sixth, and Fourteenth Amendment
rights [based on ineffectiveness regarding an Intoxication defense].
In Ground Three, he alleges that he received the ineffective
assistance of trial, appellate, and post-conviction relief counsel in
7

Case: 2:18-cv-00413-DLR

2

4

5
6
7
8

9
10
11
12
13

Filed 03/15/19

Page 8 of 21

violation of his Fifth, Sixth, and Fourteenth Amendment rights [based
on ineffectiveness regarding juror bias]. In Ground Four,
Petitioner alleges that trial counsel rendered ineffective assistance in
violation of his Fifth, Sixth, and Fourteenth Amendment rights by
waiving a conflict of interest as to a settlement conference.

1
3

Document 25

(Order 5/31/18, Doc. 3 at 2 (emphasis added).)

In his Petition, Petitioner makes no

argument regarding the timeliness of it. (Petition, Doc. 1 at 11.)
Response - On September 10, 2018, Respondents filed their Limited Answer
(Docs. 10-22), arguing that the petition is untimely and Grounds 3 and 4 are procedurally
defaulted.
Reply - On October 11,2018 Petitioner filed a Reply (Doc. 24). Petitioner argues
any procedural default should be excused based on ineffective assistance of appellate and
PCR counsel. He argues his Petition is timely based on statutory tolling for the pendency
of his first PCR proceeding. He argues he is entitled to equitable tolling based on the
ineffective assistance of PCR counsel. Finally, Petitioner argues the merits of his claims.
(Id. at 12, etseq.)

14
15

in. APPLICATION OF LAW TO FACTS

16 A. TIMELINESS
1, One Year Limitations Period
17
Respondents assert that Petitioner’s Petition is untimely. As part of the Anti18
Terrorism and Effective Death Penalty Act of 1996 ("AEDPA"), Congress provided a 119
year statute of limitations for all applications for writs of habeas corpus filed pursuant to

20

21
22
23
24

25
26
27

28 U.S.C. § 2254, challenging convictions and sentences rendered by state courts. 28
U.S.C. § 2244(d). Petitions filed beyond the one-year limitations period are barred and
must be dismissed. Id.
2. Commencement of Limitations Period
a. Conviction Final
The one-year statute of limitations on habeas petitions generally begins to run on
"the date on which the judgment became final by conclusion of direct review or the

28
8

Case: 2:18-cv-00413-DLR

1

Document 25

Filed 03/15/19

Page 9 of 21

expiration of the time for seeking such review." 28 U.S.C. § 2244(d)(1)(A).4

2

Here, Respondents argue Petitioner’s direct appeal remained pending through April

3

16,2012, when Petitioner’s extended deadline to file a petition for review with the Arizona

4

Supreme Court expired. (See Exhibit U, Order 4/30/12.) Because it does not affect the

5 outcome, the undersigned assumes for purposes of this Report and Recommendation (in
6 Petitioner’s favor), Jhat Petitioner’s conviction did not become final untilJhe Arizona
7

Supreme Court actually dismissed the matter it had apparently opened upon filing of

8

Petitioner’s motion to extend. That did not occur until April 30,2012.

9

For purposes of 28 U.S.C. § 2244, “direct review" includes the period within which

10 a petitioner can file a petition for a writ of certiorari from the United States Supreme Court,
11

whether or not the petitioner actually files such a petition. Gonzalez v. Thaler, 565 U.S.

12

134, 150 (2012). The Supreme Court “can review, however, only judgments of a ‘state

13 court of last resort’ or of a lower state court if the ‘state court of last resort’ has denied
14 discretionary review.” Gonzalez v. Thaler, 565 U.S. 134,154 (2012) (citing U.S. Sup.Ct
15 R. 13.1 and 28 U.S.C. § 1257(a)). Here, Petitioner ultimately did not file a petition for
16 review by the Arizona Supreme Court. Accordingly, the time for seeking a writ of
17 certiorari with the U.S. Supreme Court cannot be considered in determining when
18 Petitioner's judgment became final. Id.
19
20

Therefore, Petitioner’s conviction became .final no later than April 30, 2012, and
on that basis his limitations period commenced running no later than May 1,2012.

21
22

b. Newly Discovered Factual Predicates

23

Although the conclusion of direct review normally marks the beginning of the

24

statutory one year, section 2244(d)(1)(D) does provide an alternative of “the date on which

25
26 4 Later commencement times can result from a state created impediment, newly recognized
constitutional rights, and newly discovered factual predicates for claims. See 28 U.S.C. §
27 2244(d)(l)(B)-(D). Except as discussed hereinafter, Petitioner proffers no argument that
any of these apply.
28

9

Case: 2:18-cv-00413-DLR

Document 25

Filed 03/15/19

Page 10 of 21

1

the factual predicate of the claim or claims presented could have been discovered through

2

the exercise of due diligence.” Thus, where despite the exercise of due diligence a

3

petitioner was unable to discover the factual predicate of his claim, the statute does not

4 commence running on that claim until the earlier of such discovery or the elimination of

5 the disability which prevented discovery. Thus, the commencement is not delayed until
6 actual discovery, but only until the date on which it “could have been discovered througlT ^
7 (the exercise of due diligence.” 28 U.S.C. § 2244(d)(1)(D).

Here, Petitioner argues that he belatedly discovered evidence of PCR counsel’s

8

9 ineffectiveness,, which he then raised in,his second PCR proceeding. (Reply, Doc. 24 at
10

10-11.) But Petitioner, fails to show what that new evidence might have.been. To the

11

extent that Petitioner refers to the facts underlying his claims of juror bias.or.the waiyer of

12 the judge’s conflict of interest, Petitioner fails to show how this, was “newly-discovered.”
___.

13

......

Petitioner was present at the time the juror was questioned, and was present when counsel

14 waived the trial judge’s conflict of interest in handling the settlement conference.
Moreover, those matters were included in the transcripts and thus would have long

15

16 been available to Petitioner or his appellate counsel and PCR counsel. “Under ordinary
17 circumstances-and there is no room for the application of a different principle here-a
18 lawyer’s knowledge is..attributed to her client.” Wood v. Spencer, 487 F.3d 1,4-5 (1st Cir.
19 2007), cert, denied, A2% S. Ct. 260 (2007). See also Ford v. Galaza, 683 F.3d 1230, 1236
20

(9th Cir. 2012) (citing Wood, 487 F.3d at 4-5, but not relying on attribution of attorney’s

21

knowledge to petitioner). It is true that where the factual predicate concerns such things

22

as counsel’s conflict of interest or failure to file a notice of appeal, which counsel could

23

be presumed toj:onceal from his client, the knowledge. .of counseljnayLnot be attributable

24 to the petitioner. See e.g. Anjulo-Lopez v.JJnited States, 541 F.3d 814,817 (8th Cir. 2008)

25( (counsel’s failure to file notice of appeal). But here, -neithernppellate.noij’CR counsel
26 Vwould have had reason to^conceal.from£etitioner.trial fiounsePsjngffectiveness.
s

27

Any assertion that .the failures of PCR counsel to raise the claims is newly

28

discovered would be equally unavailing. Petitioner would have been aware of that failure
10

Case: 2:18-cv-00413-DLR

Document 25

Filed 03/15/19
•„

Page 11 of 21
‘v ‘£.1 (:rsd-

1 _at least as of die time of PCR counsel’s Noticeof Completion of Review^fitelQctober
18,2012 (Exhibit X). As discussed hereinafter, the undersigned ultimately concludes that

2
3
4

because of the available statutory tolling, Petitioner’s limitations period did not begin

r

Sunning until May 9,2015, over 30 months later. Moreover. Petitioner does not assert in
this case a claim of ineffective assistance of PCR counsel.

6

To the extent that Petitioner would refer to a belated discovery of the legal import
of the facts, his recent discovery doesjtotjjuaH^

y

“Time begins

when the prisoner knows ('orthrough diligence could discover) the,jmportantfactsy not
when the prisoner recognizes their legal significance.” Hasan,v. Galaza, 254 F.3d 1150,

V

10
11
12
13

1154 n. 3 (9th Cir. 2001). The rationale is well put by the Seventh Circuit:
Like most members of street gangs, Owens is young, has a limited
education, and knows little about the law. If these considerations
delay the period of limitations until the prisoner has spent a few years
in the institution's law library, however, then § 2244(d)(1) might as
well not exist; few prisoners are lawyers.

14 Owens v. Boyd, 235 F.3d 356, 359 (7th Cir. 2000), as amended (Jan. 22,2001).
15
16

c. Conclusion re Commencement

17

Therefore, without considering any tolling, Petitioner’s one year began running no

18 later than May 1,2012, and expired on April 30,2013.5
19
20

21

3. Timeliness Without Tolling
Petitioner’s Petition (Doc. 1) was filed on February 15,2018.

22
23
24

25
26
27
28

5 For purposes of counting time for a federal statute of limitations, the standards in Federal
Rule of Civil Procedure 6(a) apply. Patterson v. Stewart, 251 F.3d 1243,1246 (9th Cir.
2001). Rule 6(a)(1)(A) directs that the “the day of the event that triggers the period” is
excluded. Thus, the one year commenced the day after Petitioner’s conviction became
final, or on May 1,2012 (day one), and the last day was 364 days later, on April 30,2013.
See Patterson v. Stewart, 251 F.3d 1243 1246 (9th Cir. 2001) (applying “anniversary
method” under Rule 6(a) to find that one year grace period from adoption of AEDPA
statute of limitations, on April 24, 1996, commenced on April 25, 1996 and expired one
year later on the anniversary of such adoption, April 24,1997).
11

\

Case: 2:18-cv-00413-DLR

1

Document 25

Filed 03/15/19

Page 12 of 21

However, the Petition includes Petitioner’s declaration that it “was placed in the

2 prison mailing system on 1/30/18.” (Doc. 1 at 11.) “In determining when a pro se state
3

or federal petition is filed, the ‘mailbox’ rule applies. A petition is considered to be filed

4

on the date a prisoner hands the petition to prison officials for mailing.” Porter v. Ollison,

5

620 F.3d 952, 958 (9th Cir. 2010). Respondents offer nothing to counter this contention,

6 and the undersigned finds that the Petition was delivered to prison officials for mailing on
7

that date, and concludes that it should be deemed “filed” as of that date, January 30,2018.

8

As determined in subsection (1) above, without any tolling Petitioner’s one year

9 habeas limitations period expired no later than April 30,2013, making his Petition almost
10 five years delinquent.
11
12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
27
28

4, Statutory Tolling
The AEDPA provides for tolling of the limitations period when a "properly filed
application for State post-conviction or other collateral review with respect to the pertinent
judgment or claim is pending." 28 U.S.C. § 2244(d)(2). This provision only applies to
state proceedings, not to federal proceedings. Duncan v. Walker, 533 U.S. 167 (2001).
Properly Filed - Statutory tolling of the habeas limitations period only results from
state applications that are “properly filed,” and an untimely application is never “properly
filed” within the meaning of § 2244(d)(2). Pace v. DiGuglielmo, 544 U.S. 408 (2005).
On the other hand, the fact that the application may contain procedurally barred claims
does not mean it is not “properly filed.

9?

<C

[T]he question whether an application has been

‘properly filed’ is quite separate from the question whether the claims contained in the
application are meritorious and free of procedural bar.” Artuz v. Bennett, 531 U.S. 4, 9
(2000).
Mailbox Rule - For purposes of calculating tolling under § 2244(d), the federal
prisoner “mailbox rule” applies. Under this rule, a prisoner’s state filings are deemed
“filed” (and tolling thus commenced) when they are delivered to prison officials for
mailing. In Anthony v. Cambra> 236 F.3d 568 (9th Cir. 2000), the Ninth Circuit noted:
12

Case: 2:18-cv-00413-DLR

2
3

5
6
7
8

9
10
11
12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
27

Filed 03/15/19

Page 13 of 21

[I]n Saffold v. Newland, 224 F.3d 1087 (9th Cir.2000), we squarely
held that the mailbox rule applies with equal force to the filing of state
as well as federal petitions, because "[a]t both times, the conditions
that led to the adoption of the mailbox rule are present; the prisoner
is powerless and unable to control the time of delivery of documents
to the court.” Id. at 1091.

1

4

Document 25

Id. at 575.
Similarly, the “mailbox rule” applies to determining whether an Arizona prisoner’s
state filings were timely. Although a state may direct that the prison mailbox rule does
not apply to filings in its court, see Orpiada v. McDaniel, 750 F.3d 1086, 1090 (9th Cir.
2014), Arizona has applied the rule to a variety of its state proceedings. See e.g. Mayer
v. State, 184 Ariz. 242,245,908 P.2d 56,59 (App.1995) (notice of direct appeal); State v.
Rosario, 195 Ariz. 264, 266, 987 P.2d 226, 228 (App.1999) (PCR notice); State v.
Goracke, 210 Ariz. 20, 23, 106 P.3d 1035, 1038 (App. 2005) (petition for review to
Arizona Supreme Court).
Application to Petitioner - Petitioner’s limitations period ordinarily would have
commenced running on May 1,2012.
However, Petitioner’s first PCR proceeding was commenced no later than April
10,2012, before his limitations period began running, when Petitioner filed his Notice of
PCR (Exhibit V). That proceeding remained pending at least until March 24,2015, when
the Arizona Court of Appeals denied relief on the petition for review. (Exhibit FF.)
However, the mandate was not issued by the Arizona Court of Appeals until May 8,2015.
(Id.) See Celaya v. Stewart, 691 F. Supp. 2d 1046 (D. Ariz. 2010), ajj'dm Fed. Appx.
794 (9th Cir. 2012), withdrawn and superseded on other grounds on denial of reh'g en
banc, 497 Fed. Appx. 744 (9th Cir. 2012) (under Arizona rules, a decision issued by the
court of appeals after it accepts review of a petition is not finalized until issuance of the
mandate).
Accordingly, the undersigned presumes for purposes of this Report and
Recommendation ^ Petitioner’s favor) that the first PCR proceeding remained pending,
and Petitioner’s limitations period tolled from its inception, through May 8, 2015. It

28

13

Case: 2:18-cv-00413-DLR

1

Document 25

Filed 03/15/19

Page 14 of 21

commenced running again on May 9,2015 and expired one year later on May 8,2016.

2

Petitioner’s second PCR proceeding was not commenced until May 20, 2016,

3

when Petitioner filed his second PCR notice (Exhibit GG). Because it does not affect the

4

outcome, the undersigned assumes for purposes of this Report & Recommendation, that

5

Petitioner’s PCR notice was delivered to prison officials for mailing on the date it was

6 signed, May 16,2016. (Exhibit GG at 4.)
7

At that time, his one year had been expired for over eight days. Once the statute

8 has run, a subsequent post-conviction or collateral relief filing does not reset the running
9 of the one year statute. Jiminez v. Rice, 276 F.3d 478, 482 (9th Cir. 2001); Ferguson v.
10 Palmateer, 321 F.3d 820, 823 (9th Cir. 2003). Accordingly, Petitioner has no statutory
11

tolling resulting from his second PCR proceeding, and his limitations period expired no

12 later than May 8,2016.6
13
14

Consequently, Petitioner’s habeas petition, deemed filed January 30, 2018, was
over 20 months delinquent.

15
16
17
18
19
20

21
22
23

5. Equitable Tolling
The AEDPA habeas statute of limitations is not jurisdictional and is subject to
equitable tolling. Holland v. Florida, 560 U.S. 631 (2010). "Equitable tolling of the oneyear limitations period in 28 U.S.C. § 2244 is available in our circuit, but only when
^extraordinary jcimunT^tances beyond a prisoner’s control make it impossible to file a
petition on time' and ‘the exttaordinary circumstances were the cause of his untimeliness."’
Laws v. Lamarque, 351 F.3d 919,922 (9th Cir. 2003).
To receive equitable tolling, [t]he petitioner

.establish

24

6 Respondents argue that this proceeding would not, in any event, have resulting in tolling
25 because “the state court dismissed Hernandez’s successive petition as untimely.”
26 (Answer, Doc. 10 at 7.) The undersigned is not convinced. The Arizona Court of Appeals
did not dispose of Petitioner’s claim of ineffective PCR counsel based on timeliness, but
27 solely on the basis that it was “not cognizable under Rule 32.” (Exhibit II, Mem. Dec.
10/26/17 at H 5.) It was only Petitioner’s “IAC claims against trial and appellate counsel,
28 and his claims of trial error” which were deemed untimely. (Id at if 6.)
14

Case: 2:18-cv-00413-DLR

1
2
3

Document 25

Filed 03/15/19

Page 15 of 21

elements: (1) that he has been pursuing his rights diligently, and (2)
that...some.. exh^prdin^~'circuimtahces stood in_ his way. The
petitioner mqst . additionally..show .that, the “extraordinary
jcircuinstances . were ..the cause of his untimelmess, and that the
jxtraordinary- circumstano.es ma[de] it impossible to file a petition on
time.

4 Ramirez v. Yates, 571 F.3d 993, 997 (9th Cir. 2009) (internal citations and quotations

5

omitted). “Indeed, ‘the threshold necessary to trigger equitable tolling [under AEDPA] is

6 very high, lest the exceptions swallow the rule.’” Miranda v. Castro,292 F.3d 1063, 1066
7

(9th Cir. 2002) (quoting United States v. Marcello, 212 F.3d 1005,1010 (7th Cir.).

8

Even if extraordinary circumstances prevent a petitioner from filing for a time,

9

equitable tolling will not apply if he does not continue to diligently pursue filing

10 afterwards. “If the person seeking equitable tolling has not exercised reasonable diligence
11

in attempting to file after the extraordinary circumstances began, the link of causation

12 between the extraordinary circumstances and the failure to file is broken, and the
13

extraordinary circumstances therefore did not prevent timely filing.” Valverde v. Stinson,

14 224 F.3d 129,134 (2nd Cir. 2000). Ordinarily, thirty days after elimination of a roadblock
15
16

should be sufficient. See Guillory v. Roe, 329 F.3d 1015,1018, n.l (9th Cir. 2003).
Petitioner bears the burden of proof on the existence of cause for equitable tolling.

17 Pace v. DiGuglielmo, 544 U.S. 408,418 (2005); Rasberry v. Garcia, 448 F.3d 1150,1153
18 (9th Cir. 2006) (“Our precedent permits equitable tolling of the one-year statute of
19 limitations on habeas petitions, but the petitioner bears the burden of showing that
20

equitable tolling is appropriate.”).

21

Petitioner argues he is entitled to equitable tolling based on the ineffective

22

assistance of counsel in his first PCR, because of the failure to raise the claims asserted in

23

Petitioner’s second PCR proceeding. (Reply, Doc. 24 at 10-11.) Although an attorney's

24

behavior can establish the extraordinary circumstances required for equitable tolling, mere

25 negligence or professional malpractice is insufficient. Frye v. Hickman, 273 F.3d 1144,
26

lf46 (9th Cir.2001). A “‘garden variety claim of excusable neglect,’ such as a simple

27

‘miscalculation’ that leads a lawyer to miss a filing deadline does not warrant equitable

28

tolling.’” Holland v. Florida, 560 U.S. 631, 651-652 (2010). Rather, the attorney’s
15

1

Case: 2:18-cv-00413-DLR

Document 25

Filed 03/15/19

Page 16 of 21

1

misconduct must rise to the level of extraordinary circumstances. Id. Similarly, a failure

2

of counsel to identify claims for review is not an extraordinary circumstance.

3

Petitioner argues that PCR counsel’s performance was so deficient that it amounted

4

to a constructive denial of counsel, and thus is sufficiently egregious. But PCR counsel

5

did not abandon Petitioner, but instead reviewed a wide ranging scope of documents, and

6 concluded that no claims remained to be raised. {See Exhibit X, Not Completion of
7

Review.) That PCR counsel may have overlooked claims is simple negligence or

8

malpractice, and not an extraordinary circumstance.
Even if PCR counsel’s performance coufd be deemed an extraordinary

9

10 circumstance. Petitioner fails to show that he was diligent in the face of that circumstance.
11

Petitioner was afforded some three months to prepare his /2CCipgt.PjCR,petition^algng .with

12 access to his entire file and transcripts, and advisory counsel. {See Exhibit Y, M.E.
13

10/3/12.) He did not identify the claims at that time, nor, apparently, over much of the

14 ensuing 39 months between filing his firs#CR petitionand his second PCRnoticjw
To the extent that Petitioner intends to rely on his unrepresented status over that

15

16 time period, his reliance is misplaced. “It is clear that pro se status, on its own, is not
17 enough to warrant equitable tolling.” Roy v. Lampert, 465 F.3d 964, 970 (9th Cir. 2006).
18 A prisoner’s "proceeding pro se is not a ‘rare and exceptional’ circumstance because it is
19 typical of those bringing a § 2254 claim.” Felder v. Johnson, 204 F.3d 168,171 (5th Cir.
20

2000).

21

petitioner’s lack of legal sophistication is not, by itself, an extraordinary circumstance

22

warranting equitable tolling”).

23

See also Rasberry v. Garcia, 448 F.3d 1150, .1154 (9th Cir. 2006) (“a pro se

Moreover, once Petitioner had identified the claims raised in his second PCR

24 petition, instead of filing his federal petition^he filed his second shite PCR^prpceeding.

25 Eefitimerpxoffers no^asoiiior liayiiig done so.
26

Petitioner cannot assert that he was instead attempting to exhaust his state remedies.

27

In Pace v. DiGuglielmo, 544 U.S. 408 (2005), the Supreme Court analyzed the potential

28

catch-22 between the habeas limitations period and the exhaustion requirement, where a
16

Case: 2:18-cv-00413-DLR

Document 25

Filed 03/15/19

Page 17 of 21

1

state petitioner has filed a state post-conviction relief proceeding which may ultimately be

2

deemed untimely, thus not properly filed, and resulting in the expiration of his habeas

3

limitations period. “A prisoner seeking state postconviction relief might avoid this

however, by filing
a ‘protective’ petition in•—federal court
and asking the
4 predicament,
r
yz____ ............................ ....
-------------------------------stay and abey the federal habeas proceedings until state remedies are
5 >federal court to......•*..
• .
,

—“—r

•

6 exhausted.” Id. at 416. Petitioner proffers no reason why this avenue was not available
7

to him, nor why he did not pursue it. Nor does he explain why he continued along that

8

path after having been alerted by the PCR court that his attempts at presenting his claims

9 to the state courts were faulty.
10

In sum, Petitioner fails to show grounds for equitable tolling.

11
12 6. Actual Innocence
13

To avoid a miscarriage of justice, the habeas statute of limitations in 28 U.S.C. §

14 2244(d)(1) does not preclude “a court from entertaining an untimely first federal habeas
15 petition raising a convincing claim of actual innocence.” McQuiggin v. Perkins, 133 S.Ct.
16

1924, 1935 (2013). To invoke this exception to the statute of limitations, a petitioner

17 “’must show that it is more likely than not that no reasonable juror would have convicted
18 him in the light of the new evidence.’” Id. at 1935 (quoting Schlup v. Delo, 513 U.S. 298,
19 327 (1995)). This exception, referred to as the “Schlup gateway,” applies “only when a
20

petition presents ‘evidence of innocence so strong that a court cannot have confidence in

21

the outcome of the trial unless the court is also satisfied that the trial was free of

22

nonharmless constitutional error.’” Id. at 1936 (quoting Schlup, 513 U.S. at 316).

23

Petitioner makes no such claim of actual innocence in this proceeding.

24

Petitioner does argue in his Ground 1 that there was insufficient evidence at trial of

25 his guilt of the child kidnapping charges, because there was no evidence he intended to
26 target children. (Petition, Doc. 1 at 6.) However, a finding of “actual innocence” is not to
27

be based upon a finding that insufficient evidence to support the charge was presented at

28

trial, but rather upon affirmative evidence of innocence. See U.S. v. Ratigan, 351 F.3d 957
17

Case: 2:18-cv-00413-DLR

Document 25

Filed 03/15/19

Page 18 of 21

1

(9th Cir. 2003) (lack of proof of FDIC insurance in a bank robbery case, without evidence

2

that insurance did not exist, not sufficient to establish actual innocence). Petitioner only

3

alleges a lack of evidence at trial, not new, credible evidence of a lack of intent. “To be

4

credible, such a claim requires petitioner to support his allegations of constitutional error

5 with new reliable evidence—whether it be exculpatory scientific evidence, trustworthy
6 eyewitness accounts, or critical physical evidence—that was not presented at trial. Because
7

such evidence is obviously unavailable in the vast majority of cases, claims of actual

8

innocence are rarely successful.” Schlup, 513 U.S. at 324.

9

Moreover, the Arizona Court of Appeals rejected the contention that Arizona’s

10 child kidnapping offense had as an element the intent to target children. (Exhibit S, Mem.
11

Dec. at f 12.) This federal habeas court is not free to revisit that state law decision. See

12 Bains v. Cambra,, 204 F.3d 964, 971 (9th Cir. 2000) (“federal court is bound by the state
13

court’s interpretations of state law”).

Thus, even if Petitioner could present credible

14 evidence of an absence of such intent, it would not establish his innocence.
15

Accordingly, there is no basis for a finding of actual innocence.

16
17
18
19
20

21
22
23
24

25
26
27

7. Summary re Statute of Limitations
Taking into account the available statutory tolling, Petitioner’s one year habeas
limitations period commenced running no later than May 9, 2015, and expired no later
than one year later on May 8,2016. Petitioner has shown no basis for additional statutory
tolling, and no basis for equitable tolling or actual innocence to avoid the effects of his
delay. Consequently, the Petition must be dismissed with prejudice as untimely.
B. OTHER DEFENSES
The undersigned concludes that Petitioner’s Petition is plainly barred by the statute
of limitations. Moreover, Respondents have only responded to Grounds Three and Four
on the basis of procedural default Thus, addressing those grounds on that alternative basis
would not provide a basis for disposing of the Petition as a whole. Accordingly,

28
18

Case: 2:18-cv-00413-DLR

1

Document 25

Filed 03/15/19

Page 19 of 21

Respondents other defenses are not reached

2
3
4

IV. CERTIFICATE OF APPEALABILITY
Ruling Renuired - Rule 11(a), Rules Governing Section 2254 Cases, requires that

5 in habeas cases the “district court must issue or deny a certificate of appealability when it
6 enters a final order adverse to the applicant” Such certificates are required in cases
7

concerning detention arising “out of process issued by a State court”, or in a proceeding

8

under 28 U.S.C. § 2255 attacking a federal criminal judgment or sentence. 28 U.S.C. §

9 2253(c)(1).
Here, the Petition is brought pursuant to 28 U.S.C. § 2254, and challenges detention
10
11 pursuant to a State court judgment. The recommendations if accepted will result in
12 Petitioner’s Petition being resolved adversely to Petitioner. Accordingly, a decision on a
13 certificate of appealability is required.
Applicable Standards - The standard for issuing a certificate of appealability
14
15 (“COA”) is whether the applicant has “made a substantial showing of the denial of a
16 constitutional right.” 28 U.S.C. § 2253(c)(2). “Where a district court has rejected the
17 constitutional claims on the merits, the showing required to satisfy § 2253(c) is
18 straightforward: The petitioner must demonstrate that reasonable jurists would find the
19 district court’s assessment of the constitutional claims debatable or wrong.” Slack v.
20 McDaniel, 529 U.S. 473,484 (2000). “When the district court denies a habeas petition on
21

procedural grounds without reaching the prisoner’s underlying constitutional claim, a

22

COA should issue when the prisoner shows, at least, that jurists of reason would find it

23

debatable whether the petition states a valid claim of the denial of a constitutional right

24

and that jurists of reason would find it debatable whether the district court was correct in

25 its procedural ruling.” Id.
standard Not Met - Assuming the recommendations herein are followed in the
26
27

district court’s judgment, that decision will be on procedural grounds. Under the reasoning

28

set forth herein, jurists of reason would not find it debatable whether the district court was
19

Case: 2:18-cv-00413-DLR

1
2
3

Document 25

Filed 03/15/19

Page 20 of 21

correct in its procedural ruling.
Accordingly, to the extent that the Court adopts this Report & Recommendation as
to the Petition, a certificate of appealability should be denied.

4

V. RECOMMENDATION

5
6
7

IT IS THEREFORE RECOMMENDED that the Petitioner's Petition for Writ of
Habeas Corpus, filed February 5,2018 (Doc. 1) be DISMISSED WITH PREJUDICE.

8

9

IT IS FURTHER RECOMMENDED that, to the extent the foregoing findings

10 and recommendations are adopted in the District Court’s order, a Certificate of
11

Appealability be DENIED.

12
13
14
15
16
17
18

VI. EFFECT OF RECOMMENDATION
This recommendation is not an order that is immediately appealable to the Ninth
Circuit Court of Appeals. Any notice of appeal pursuant to Rule 4(a)(1), Federal Rules of
Appellate Procedure, should not be filed until entry of the district court's judgment.
However, pursuant to Rule 72(b), Federal Rules ofCivil Procedure, the parties shall
have fourteen (14) days from the date of service of a copy of this recommendation within

19 which to file specific written objections with the Court. See also Rule 8(b), Rules
Governing Section 2254 Proceedings. Thereafter, the parties have fourteen (14) days

20

21
22
23
24

25

within which to file a response to the objections. Failure to timely file objections to any
findings or recommendations of the Magistrate Judge will be considered a waiver of a
party's right to de novo consideration of the issues, see United States v. Reyna-Tapia, 328
F.3d 1114,1121 (9th Cir. 2003)(e« banc), and will constitute a waiver of a party's right to
appellate review of the findings of fact in an order or judgment entered pursuant to the

26 recommendation of the Magistrate Judge, Robbins v. Carey, 481 F.3d 1143,1146-47 (9th
27 Cir. 2007).
28

In addition, the parties are cautioned Local Civil Rule. 7.2(e)(3) provides that
20

*

Case: 2:18-cv-00413-DLR

Document 25

Filed 03/15/19

Page 21 of 21

\

1

“[ujnless otherwise permitted by the Court, an objection to a Report and Recommendation

2

issued by a Magistrate Judge shall not exceed ten (10) pages.”

3
4

5

Dated: March 15,2019

Z/ iJames F. Metcalf
United States Magistrate Judge

lR-M13rRR 190!21onHCJoci

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
21

